                                    December 23, 1997



MEMORANDUM FOR THE SECRETARY

FROM:         John C. Layton
              Inspector General


SUBJECT:      INFORMATION: "Audit of Support Services Subcontracts at Argonne
              National Laboratory"


BACKGROUND:

Departmental policy prohibits the use of subcontracts awarded by management and operating
contractors to provide direct support to Headquarters program offices. When support is
necessary, program offices are required to use the Headquarters procurement organization,
not the management and operating contractors.

DISCUSSION:

Four major program offices did not follow Departmental policy during Fiscal Year 1996 when
they acquired support services through subcontracts awarded by Argonne National
Laboratory (Argonne). The offices of Environment, Safety and Health; Environmental
Management; Energy Research; and Nuclear Energy, Science and Technology acquired their
subcontractor services through Argonne because they believed that Argonne's procurement
organization could provide the services faster than the Headquarters procurement
organization. As a result, the Department may have paid more than necessary for the services,
while many of the safeguards against noncompliance with laws and regulations that are
normally provided by the Department's procurement process were lost. We recommended
that the program offices (1) direct their program managers to discontinue the practice of
acquiring support services from subcontractors hired by Argonne, and (2) establish
management controls to ensure that program managers acquire support services through the
Department's normal procurement process, and not through management and operating
contractors.

The program offices agreed with our finding and recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary
                             U.S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL




                   AUDIT OF SUPPORT SERVICES SUBCONTRACTS

                       AT ARGONNE NATIONAL LABORATORY



  The Office of Inspector General wants to make the distribution of its reports as customer
 friendly and cost effective as possible. Therefore, this report will be available electronically
                   through the Internet at the following alternative address:


          Department of Energy Human Resources and Administration Home Page
                               http://www.hr.doe.gov/ig

              Your comments would be appreciated and can be provided on the
                     Customer Response Form attached to the report.

                            This report can be obtained from the
                                 U.S. Department of Energy
                        Office of Scientific and Technical Information
                                         P.O. Box 62
                                Oak Ridge, Tennessee 37831



Report Number: DOE/IG-0416                                    Eastern Regional Audit Office
Date of Issue: December 23, 1997                              Oak Ridge, TN 37830
                       AUDIT OF SUPPORT SERVICES SUBCONTRACTS
                         AT ARGONNE NATIONAL LABORATORY



                                            TABLE OF CONTENTS

                                                                                                                         Page

            SUMMARY..................................................................................................... 1

PART 1 - APPROACH AND OVERVIEW...................................................................... 2

            Introduction.................................................................................................…. 2

            Scope and Methodology...............................................................................….2

            Background...................................................................................................... 3

PART II - FINDING AND RECOMMENDATIONS...................................................... 4

            Headquarters' Use of Subcontractors Hired by Argonne
             National Laboratory ...………………………………………………………. 4

PART III - MANAGEMENT AND AUDITOR COMMENTS.......................................... 9
                            U.S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL
                             OFFICE OF AUDIT SERVICES

                  AUDIT OF SUPPORT SERVICES SUBCONTRACTS
                    AT ARGONNE NATIONAL LABORATORY


Audit Report Number: DOE/IG-0416

                                        SUMMARY

        Department of Energy (Department) policy prohibits the use of subcontracts awarded
by management and operating contractors to provide direct support to Headquarters program
offices. When support is necessary, program offices are required to use the Headquarters
procurement organization, not the management and operating contractors. The objective of
this audit was to determine whether the program offices were obtaining direct support for
their programs through subcontracts awarded by Argonne National Laboratory (Argonne).

         Despite the Department's policy, program offices in four major Departmental divisions
used 24 subcontracts awarded by Argonne to provide direct support for their programs in
Fiscal Year 1996. The program offices acquired the subcontractor services through Argonne
because they believed that Argonne's procurement organization could provide the services
faster than the Headquarters procurement organization. As a result, the Department may have
paid more than necessary for the services, while many of the safeguards against
noncompliance with laws and regulations that are normally provided by the Department's
procurement process were lost.

       We recommended that the Assistant Secretary for Environment, Safety and Health; the
Assistant Secretary for Environmental Management; the Director, Office of Energy Research;
and the Director, Office of Nuclear Energy, Science and Technology (1) direct program
managers to discontinue the practice of acquiring support services from subcontractors hired
by Argonne; and (2) establish management controls to ensure that program managers acquire
support services through the Department's normal procurement process, and not through
management and operating contractors.

        Management concurred with the audit finding and recommendations and initiated
corrective action.


                                                     ________/s/__________
                                                     Office of Inspector General
                                           PART I

                              APPROACH AND OVERVIEW

INTRODUCTION

        Department of Energy (Department) policy requires Headquarters program offices to
use the Department's procurement procedures and staff to obtain direct contract support for
their programs. The objective of this audit was to determine whether the Headquarters
program offices were complying with the Department's policy at Argonne National
Laboratory (Argonne). Specifically, the audit objective was to determine whether
Headquarters program offices were obtaining direct support for their programs through
subcontracts awarded by Argonne.


SCOPE AND METHODOLOGY

         The audit was performed from February through August 1997 at Argonne's offices in
Argonne, Illinois and Gaithersburg, Maryland; the Chicago Operations Office in Argonne,
Illinois; and Headquarters program offices in Germantown, Maryland and Washington, D.C.
To accomplish the audit objective, we interviewed key Department, contractor and
subcontractor personnel and reviewed:

         •   Federal and Departmental regulations, Departmental memoranda, and Argonne's
             policies and procedures for subcontracting;

         •   Prior audit reports concerning management and operating contractors'
             subcontracting practices and procedures;

         •   Subcontract files regarding the scope of work, period of performance, dollar
             amount, extent of competition, sole-source justification, modification to the
             original scope of work, location of subcontractors, and past work history; and,

         •   Technical representatives' files to determine the extent and nature of guidance
             provided to the subcontractors.

        The audit universe included 49 support service subcontracts initiated by the Special
Projects Office and awarded by Argonne, which incurred costs of $3.0 million during Fiscal
Year (FY) 1996. A judgmental sample of 24 subcontracts which incurred $2.9 million during
FY 1996 was selected for the audit.




                                              2
        The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. Accordingly, we
assessed the significant internal controls with respect to the subcontracting process which
included the identification and assessment of internal controls over the selection and
administration of subcontractors. We performed limited tests of computer generated data and
relied upon this information to provide the universe of subcontracts. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit.

        An exit conference was waived by the program office representatives of Environment,
Safety and Health; Environmental Management; Energy Research; and Nuclear Energy,
Science and Technology.


BACKGROUND

       Argonne is a multiprogram laboratory established by the Atomic Energy Act of 1946.
Argonne is operated by the University of Chicago under a cost reimbursement contract with
the Department. Argonne received funding of $505 million for FY 1996 operations.

        Argonne's Special Projects Office (Special Projects) provided a variety of support
services to Headquarters program offices. These services included activities such as training
Departmental employees, performing cost evaluations and environmental assessments, and
providing advice on public policy. As part of this service, Special Projects initiated the award
of subcontracts through Argonne's procurement office for work assignments requested by the
program offices. Special Projects maintained offices in Argonne, Illinois and Gaithersburg,
Maryland, and employed 34 employees in FY 1996.




                                               3
                                           PART II

                          FINDING AND RECOMMENDATIONS


        Headquarters' Use of Subcontractors Hired by Argonne National Laboratory

FINDING

        Departmental policy states that it is inappropriate for Headquarters program offices to
use support service subcontractors hired by management and operating contractors to directly
support Headquarters programs. Despite the Department's policy, program offices used 24
support service subcontracts awarded by Argonne to provide direct support to their
Headquarters programs. The program offices acquired the services through Argonne because
they believed Argonne could provide the services faster than the Department's Headquarters
procurement organization. As a result, the Department may be paying more than necessary
for the services, while many of the safeguards against noncompliance with Federal laws and
regulations that are normally provided by the Department's procurement process were lost.


RECOMMENDATIONS

       We recommend that the Assistant Secretary for Environment, Safety and Health; the
Assistant Secretary for Environmental Management; the Director, Office of Energy Research;
and the Director, Office of Nuclear Energy, Science and Technology:

   1. Direct program managers to discontinue the practice of acquiring support services for
      their programs from subcontractors hired by Argonne; and

   2. Establish management controls to ensure that program managers acquire support
      services through the Department's normal procurement process, and not through
      management and operating contractors.


MANAGEMENT REACTION

        The Assistant Secretary for Environment, Safety and Health; the Assistant Secretary
for Environmental Management; the Director, Office of Energy Research; and the Director,
Office of Nuclear Energy, Science and Technology concurred with the finding and
recommendations. Management's comments are summarized and addressed in Part III of this
report.




                                               4
                                  DETAILS OF FINDING


DEPARTMENTAL POLICY

        Departmental policy prohibits the use of support service subcontractors hired by
management and operating contractors to directly support Headquarters or field office
employees. This policy has been communicated in several memoranda beginning in August
1981 when the Assistant Secretary for Management and Administration instructed
Headquarters organizations that they were not to use contractors to award subcontracts which
directly support program office needs. In June 1993, the Acting Assistant Secretary for
Human Resources and Administration reemphasized the Department's policy, stating that the
use of contractors to acquire support services for program offices places the contractor in the
role of a mere procurement office and avoids the safeguards provided by the Department's
normal procurement process. Additionally, in January 1996, the Deputy Assistant Secretary
for Procurement and Assistance Management emphasized the need for Headquarters
organizations to comply with the Department's policy, stating that the program offices'
procurement needs are to be accomplished by the Headquarters procurement organization—
not by management and operating contractors.

        In recent years the Office of Inspector General (OIG) has reported several instances of
noncompliance with the Department's policy. In August 1993, the OIG issued Audit Report
ER-B-93-06, Report on Audit of Subcontract Administration at Argonne National
Laboratory. The audit identified that Headquarters program officials had improperly directed
the award of sole-source subcontracts through Argonne. In June 1995, we issued Audit
Report WR-B-95-07, Consultant Subcontracting at the Idaho National Engineering
Laboratory. The audit showed that Headquarters program offices acquired consultant
services from subcontractors hired by Idaho National Engineering Laboratory. Also, in May
1996, we issued Audit Report WR-B-96-07, Subcontracting Practices at the Nevada
Operations Office and its Management and Operating Contractors, with similar findings.

        In addition to reports on the use of subcontractor employees in the field by
Headquarters program offices, the OIG issued two reports regarding extensive use in the
Washington, D.C. area of field contractor and subcontractor employees by the program
offices. In July 1996, we issued Audit Report DOE/IG-0392, Audit of the Department of
Energy Program Offices' Use of Management and Operating Contractor Employees.
Subsequently, in December 1997, we issued Audit Report DOE/IG-0414, Audit of the
Department of Energy's Management of Field Contractor Employees Assigned to
Headquarters and Other Federal Agencies.

        The House Appropriations Committee cited OIG report DOE/IG-0392 during
hearings on the Department's FY 1998 budget, and directed that the Department "eliminate
the use of all support service contractors or subcontractors hired by M&O contractors to
support Headquarters program or field office Federal employees." The Committee stated


                                               5
"When direct contract support is necessary, program offices are required to use the
Department's—not the M&O contractor's—procurement procedures and personnel."


USE OF ARGONNE NATIONAL LABORATORY'S SUBCONTRACTOR EMPLOYEES

        Despite the Department's policy, which is now supplemented by congressional
direction, several Headquarters program offices continued to use subcontractors hired by
Argonne to provide direct support to their programs. We identified 24 support service
subcontracts that incurred costs during FY 1996 which were awarded by Argonne to provide
direct support to Headquarters program offices. Of the 24 subcontracts awarded, 14
supported the Office of Environmental Management (EM); 5 supported the Office of
Environment, Safety and Health (EH); 4 supported the Office of Nuclear Energy (NE); and 1
supported the Office of Energy Research (ER). The Department reimbursed Argonne about
$2.9 million for the 24 subcontractors' services during FY 1996. Several examples follow:

   •   Two subcontracts costing $1.3 million were awarded by Argonne for the preparation
       of environmental impact statements and environmental assessments, as required by the
       National Environmental Policy Act, and to determine the disposition of low-level
       waste throughout the Department complex. The subcontracts were awarded to
       support an EM program office.

   •   Argonne awarded a subcontract to a specific consultant to provide assistance to the
       Department's Environmental Management Program. The consultant was preselected
       for the subcontract on the purchase requisition. The scope of work included
       presenting the Department's planning documents to the public and monitoring public
       policy concerning waste operations. The same consultant was used by the program
       office for similar tasks on three consecutive subcontracts, beginning in FY 1991. The
       subcontractor received over $390,000 for consultant services between FYs 1991 and
       1996.

   •   Argonne awarded a subcontract for cost reviews of environmental restoration projects
       at another management and operating contractor's site. An EM program manager
       requested the reviews because the cost estimates submitted by the contractor were
       suspect and EM required additional assurance that the cost estimates were reasonable.
       The subcontractor charged over $129,000 for the reviews in FY 1996.

   •   Argonne awarded a subcontract costing about $65,000 in FY 1996 for the services of
       a specific subcontractor employee to obtain a report on the future of the Department's
       Fusion Energy Development Program. The purchase requisition which initiated the
       procurement identified the individual who was subsequently awarded the subcontract
       in support of the ER program.

   •   Argonne awarded a subcontract to provide training in activity based cost estimating
       for Departmental employees at Chicago, Richland, Idaho Falls, and Washington, D.C.
                                              6
       An EM program office requested the subcontract, and the work performed in FY 1996
       cost about $57,000. The training was provided to Government employees in direct
       support of the EM program office.

       Argonne's technical representatives and Headquarters employees responsible for the
procurement actions stated that guidance to the subcontractors was a "collaborative effort"
between the Argonne staff and the Department. However, Argonne could not provide any
substantive written direction or guidance to the subcontractors indicating that the quality,
scope, or performance of the work was being monitored, directed, or evaluated by the
Argonne staff. Argonne's files showed that the subcontractors were being directed by the
Department's program offices to perform specific work assignments at various locations and
times. The assignments were formalized by Argonne's technical representatives as new
subcontracts or as modifications to ongoing subcontracts. The technical representatives' files
included documentation of an administrative nature, such as Argonne's approval of
subcontractor travel requests and invoices, but they did not include evidence of direction or
guidance by the Argonne staff.


TIMELINESS OF HEADQUARTERS PROCUREMENT OPERATIONS

        The program managers stated that they acquired support services through Argonne
instead of the Department's Headquarters Procurement Operations (Procurement Operations)
because they believed Argonne could provide the services faster than Procurement
Operations. Program office employees stated that Procurement Operations required up to
12 months to award contracts. Since 12 months was considered to be unacceptable in most
situations, the program offices sought other means of procuring support services. Argonne
and other management and operating contractors were considered convenient procurement
sources because they could acquire services quickly and easily.

         Procurement Operations did not agree with the program managers' position, stating
that it could award support service contracts as quickly as Argonne could award subcontracts.
Argonne averaged about 41 days between the date of the requisition and the date of
subcontract award. In comparison, Procurement Operations stated that it could award
support services contracts within 45 to 60 days. In addition, Procurement Operations has an
expedited process which can be used to award a contract within seven days under emergency
conditions.


INCREASED COSTS AND RISKS TO THE DEPARTMENT

       As a result of using Argonne's subcontractors, Headquarters program offices may be
paying more than necessary to acquire support for their programs. The cost of acquiring
subcontracts from Argonne appeared to be significantly higher than acquiring contracts with
the same consultants or firms through Procurement Operations. Argonne charged the
Department about $267,000 in FY 1996 for overhead and administrative support as add-ons

                                               7
for the 24 subcontracts reviewed. Procurement Operations would have incurred additional
costs if they had administered the 24 procurements that were administered by Argonne during
FY 1996. However, we believe the costs would have been significantly less than $267,000.

        In addition to increasing overall costs, the practice of using management and operating
contractors to acquire support services for program offices results in the loss of important
safeguards that are normally provided by the Department's procurement process. For
example, Procurement Operations has established internal management controls to ensure
compliance with Federal laws and regulations requiring agencies to (1) obtain full and open
competition when available, (2) negotiate fair and reasonable prices where competition is not
available, (3) avoid acquisitions which result in private sector employees performing
"inherently Governmental functions," and (4) avoid conflicts of interest for Government and
contractor employees.

        We are especially concerned with the lack of competition in the source-selection
process. Seventeen of the 24 purchase requisitions which initiated Argonne's procurement
actions requested that the work be accomplished by a specific contractor. Twelve of the
24 requisitions identified specific individuals who were needed to perform the work. The
sole-source justifications typically advocated the unique qualifications of the individual or
company as evidenced by prior work done for the Department, or the urgency of the work to
be performed, as the reason for the sole-source determination.




                                              8
                                           PART III

                      MANAGEMENT AND AUDITOR COMMENTS


       The Assistant Secretary for Environment, Safety and Health; the Assistant Secretary
for Environmental Management; the Director, Office of Energy Research; and the Director,
Office of Nuclear Energy, Science and Technology concurred with the audit finding and
recommendations and initiated corrective action. A summary of the comments received from
management and our replies follow.

Recommendation 1.

       Recommendation. Direct program managers to discontinue the practice of acquiring
support services for their programs from subcontractors hired by Argonne.

        Management Comments. Management concurred with the recommendation. The
Office of the Assistant Secretary for Environment, Safety and Health stated that the program
managers were directed to immediately halt the practice of acquiring support services from
Argonne subcontractors. The Office of Environmental Management stated that all
Environmental Management deputy assistant secretaries have been directed to discontinue the
practice of acquiring services for support at Headquarters through Argonne and other
management and operating contractors. The Director, Office of Energy Research stated that
once the final report is issued, all associate and office directors will be reminded of the
Department's policy and will be required to reiterate the policy to their respective staffs. The
Office of Nuclear Energy, Science and Technology stated that its program managers will be
notified of the need to comply with current Departmental procurement policy prohibiting the
use of the management and operating contractors for awarding support service contracts for
the Department.

      Auditor Comments. Management's actions are responsive to the audit
recommendation.

Recommendation 2.

       Recommendation. Establish management controls to ensure that program managers
acquire support services through the Department's normal procurement process, and not
through management and operating contractors.




                                               9
        Management Comments. Management concurred with the recommendation. The
Office of the Assistant Secretary for Environment, Safety and Health (EH) stated that
management controls have been implemented to ensure that those responsible for obtaining
support services use the normal procurement channels rather than rely on management and
operating contractors as a source for such services. These management controls include the
use of the Office of Budget and Administration as a control point for EH contractor support
to ensure that Departmental policies are followed. The Office of Environmental Management
stated that supplemental guidelines to reinforce Departmental initiatives have been drafted and
are expected to be issued, following internal review, by March 1, 1998. The Director, Office
of Energy Research stated that during September 1997, the associate and office directors were
briefed on the Department's policy and instructed that no support services will be provided to
any Energy Research Headquarters program office by management and operating contractors
or their subcontractors. The Office of Nuclear Energy, Science and Technology stated that
management controls will be instituted to safeguard against future procurement awards by
management and operating contractors for support services.

        Auditor Comments. Management's comments are responsive to the audit
recommendation. However, the Director, Office of Energy Research did not state that
management controls would be established. Also the Office of Nuclear Energy, Science and
Technology did not provide a target date for implementation of management controls. We
applaud management's response. However, more needs to be done to ensure compliance with
the Department's policy, including the identification of the management controls and an action
plan for their implementation.




                                              10
                                                      IG Report No.______________


                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness
of its products. We wish to make our reports as responsive as possible to our
customers' requirements, and therefore ask that you consider sharing your thoughts
with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if
they are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection
               would have been helpful to the reader in understanding this
               report?

       2.      What additional information related to findings and
               recommendations could have been included in this report to
               assist management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have
               taken on the issues discussed in this report which would have been
               helpful?

Please include your name and telephone number so that we may contact you should
we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office
of Inspector General, please contact Wilma Slaughter at (202) 586-1924.

                                              11
12
